                                                                                                                                                       NATIONAL SCIENCE FOUNDATION
                                                                                                                                                            OFFICE OF INSPECTOR GENERAL
                                                                                                                                                                    OFFICE OF INVESTIGATIONS


                                                                                                                   CLOSEOUT MEMORANDUM

1)    Case Number: A05040014                                                                                                                                                                                                          Page 1of 2



                 The complainant' alleged the PI of a proposal2 appropriated a n idea and a
                 technique from a proposal the complainant had previously submitted; the
                 complainant suspected the PI reviewed the previous proposal. We opened this case
                 in May 2005 to address that allegation. We ran the PI'S proposal through our
                 plagiarism software and found some text appeared copied from other papers. Thus,
                 there are two components to the allegation of plagiarism: intellectual theft and
                 verbatim copying.
                 Intellectual theft                                                                                       ,          b


                                     . .   ,       . I *   ,.,:,   &,'.   . ;.;.   ..   i:;                                             :;., ,:,,, ;j
                                                                                                     . .'.'?,;;~.r~<,,j.~{;,;,:,.:j~~~~~..'.                     :.'.;: ,! ,-;;,         .:     . ',.? ::. ,.:$; . . . . .   . . . . . . . . . . . .
                                                                                                                                                                                                                                          .:. .: ,.              . ,..
                                                                                                                                                                                                                                                      . .:.;. . . . . . . j..., :.,. .;;'.:
                                                                                                                                                                                                                                                                                              . . . . . . ..,
                                                                                                                                                                                                                                                                                                   . :.;<,.. . ... :.,.,:i


                  his p.a r t ~ o f s t h e ' a l ~ e . g afocused..cn
                                                                                                                                                                                                                                      ;


       . . .
     . . . . .
                    ...). . * .: .             .     .      t.i ~. . ~ s
                                                               ,
                                                                         thesubJect's use: of a n idea..an&,;,i!,i, i;!,i,.~,
                                                                            ........                   .       ,      .           . .;.....                      ..:.
                                                                                                                                                   .: . . . ... . . . . .2.. .. . .. !. r . .   ; .,,!       :.,.                                      :
                                                                                                                                                                                                                                                                    ;&,,
                                                                                                                                                                                                                                                                           : i.,,.3.:::2
                                                                                                                                                                                                                                                                             ;, ,::. ;,*
                                                                                                                                                                                                                                                                                           i :) :.'::%..;
                                                                                                                                                                                                                                                                                         , .        ::.i:
                 periphe%ally;
                             , , the t:@ch,ni,que
                                     ..,... :,!... , . .              he .ppqosed..to
                                                                             .
                                                                                  :+ :
                                                                                 -I,;
                                                                                         . implement
                                                                                            '.:,.:        idea. . The b&d~l'ii&antj;i:;        . .I : .:j,~.:~:~
                                                                                                                                    .:.. , , . ....
                                                                          also a k expert in".thisarea and may haP~,,::I;,jli:!.~,
                                                                           . .                                               !!.
                                                                                                                              .........I              ;     2   .                                                                                                                                           ;:.    .......
                                                                                                                                                           .
                                  theksubject 'w;ii'
                                                                                                                                                                                                                                                                   :$!

                                                                                                                                 ,i ; . .: .;,i-;:i;,;;i:-t;\                                                                                                                                                      ,




                 independently come up with:::theidea:. prom our review of the previous:propbs&iif: .:u-..;;I
                                                                                                                                                                                                                                                                                                        ,     !.
                 the complainant correctly,.&uesse.dth,~
                                       . .,.: . . . . . . . . . . . . . . . ..: .      &bject7s review, wherein the reviewer                  .:   ,.. ;.
                                                                                                                                          .;,pf.-;t..,:.   :.   : &..                                                                                                         . :.            ..

                 suggested applying the technique tothe idea, then the subject is in some sense                                              :                                                                                                                                      .              '!



                 carrying out his own suggestion in the current, NSF                                           The subject cited
                 seven of the complainant's papers, but not in the specific section describing the idea
                 the complainant alleges came from his previous proposal.
                 During the document review for the copying portion of this case, described below,
                 we found a paper with a near-identical description of the technique described in the
                 subject's proposal as the alleged intellectual theft.3 The paper was published
                 around the time of the complainant's previous proposal, and this paper's description
                 of the technique is so similar to the subject's, it would be difficult to sustain an
                 allegation of intellectual theft by the subject of the complainant's methodology.
                           b
n                                              -                                                                                               I                                                                                                                                   I



                                                                                                                                                          NATIONAL SCIENCE FOUNDATION
                                                                                                                                                           OFFICE OF INSPECTOR GENERAL
                                                                                                                                                             OFFICE OF INVESTIGATIONS


                                                                                                                                           CLOSEOUT MEMORANDUM

I((Case Number: A05040014                                                                                                                                                                                                                                                          11                                        Page 2 of 2



                                   With regard to the specific idea, the reviewer of the complainant's previous
                                   proposal, regardless of whether it is the subject, suggested such a n idea, so it is
                                   reasonable to conclude someone with the subject's background and expertise could
                                   have reached a similar conclusion.


                                   verba tim plagiarism
                       ;:;:.$he
                           ;*. yp1agiarism:identified
                                          .            by our software was not substantial ~he~en.w&j&:a
                                                                                 .           ...                      couple!
    ..:. -             ~,-<:~.~.~~omple$&;.sentencescopied from one source, and sever~..-compl~~~sentePCeseDpiedi                             :
                                                                                  :is:\fhe  . .
                                                                                                                                                                                                                                                                                                                                                                                                       : ,;
 .. ,, . , ;;; .i,.;.,;                           .: >
 . .
          ;
            ,::, ,:!
 . ,. .. ', , , :
                          fibm. g : f g ~ e 6 ~ : ~ ~~~h
                        I,, ., ! > :,.:...,,.
                                                    ~ i ~ phpers
                                                           b ~ ~ cwere
                                                           '
                                                                   ~ i rgfgre;~ce.d    ,propog-d i.;- .a h.' ~.,. ~ e : ; ' c,..:::~ i . ~ l;u : ~ g .
                                                                                                                  is:                                                                      ., , .       .                                        .
                                                                                                                                                                                                                                                     C..
                                                                                                                                                                                                                                                                         ;                                         :-.
                                                                                                                                                                                                                                                                                                                                           I...
                                                                                                                                                                                                                                                                                                                                                  :   .:;...         ''




  .. . . . . ;i,.<,!: , , ; , : ;...., c:-,
   < ...; .
                                       'I.;.     ,.'...
                                              p . ; : , y ;.. l : :                                                                                              .      ,   ,   ,;,.   .     ;::,
                                                                                                                                                                                           . ..         ,..::..i,         ;:-*;$,        ;,,; .jjf:..      .:- > ,::: ,,. ,. .. ;
                                                                                                                                                                                                                                                                                : :.          ,         .'.,:.   . ,:
                                                                                                                                                                                                                                                                                                                    ?. . ? . . ,:. . . ..2 . . . ..!:'
                                                                                                                                                                                                                                                                                                                         .:.;,i.,..y::,:... .$                 ;:!        ,   .:                .: ., ?,
                                t&evepb
                                                                                                             'i.~'i:..l,',:$'::                                                                                                                                                    :                                                                                                   r
                                                                                                                                                                                                                    -,
                                                                                                                                                                                                                                               :.,
    . .,      ;    .:., . ,             atim:$6p$fng
                                        ;.y+:!. :;
                                                     1s de                                                                                         . -   . us.       . .. , ., . .                              .      .
                                                                                                                                                                                                                                            :                        ,           <:;,:.     ,. :   :
                                                                                                                                                                                                                                                                                                            .i!;;;.i,;::;!:,<.:fis;
                                                                                                                                                                                                                                                                                                              .,.                  :-,:;. .;:;,;
                                                                                                                                                                                                                                                                                                                                                     ,,
                                                                                                                                                                                                                                                                                                                                                                                           ,>,.,       ,


                                                                                                                                                                                           ., .
                                                                                                                                                                                             ?          .
    ;,.       ..   , .'    '   . ,  ..
                               .,,.I:,',
                                    .
                                                    ;.,   ;,:
                                                          ,
                                                                -!                       ;.:.. J s ;.., i   ,;';,         : '3.
                                                                                                                                 I'
                                                                                                                                          7'                          .  . ,                        ,   ;. ,        ,.    ,   :
                                                                                                                                                                                                                              ,     ;.          .?li:.,>7T>!,..:                        .,':'?
                                                                                                                                                                                                                                                                                             *,.,           : , : ". ;;;;;. :,;.:,;.;,:.,: ;:;::
                                                                                                 . ..
                                                                                                                            I                                                                       , L . , , c , , ; .

                                   l                                               .
                                                                                .. :                                                                                                                                                .       .                   .,
                                                                     .               .       ,   .
                                                                                                                                                                                            ...                                                                                        :,...''i: . "
                                                                                                                                                                                                                                                                                                                                    !.             ,..>
    ,;    !        ..,,,   -::,i!j,:
                              . .
                                                   $',;   ,.,   :., ,:   L   ,.\:.       .   :.,.,;,;   :;!,..      ,   , ,,.,   .    >                                                                     . .. .. ,.,       ...
                                                                                                                                                                                                                              '.    ,    ,\.     ,!I[
                                                                                                                                                                                                                                    s ; ,-;.;:rj!,          ,                ;,,                   ., .
                                                                                                                                                                                                                                                                                                    '
                                                                                                                                                                                                                                                                                                                         ,
                                                                                                                                                                                                                                                                                                                             , ,::,>;
                                                                                                                                                                                                                                                                                                                             .     L ,
                                                                                                                                                                                                                                                                                                                                       .
                                                                                                                                                                                                                                                                                                                                                  ,. , .:...    .<.       , ..     '       .,      :


          '
                                                                                                                                                                                                                                                  'i:
                                   biven (a) the apparent broadness of the complainant's icl~a;(b) t'he possihlity,                                                                                                                                                                                                                                                       ,

                                   raised by the complainant, the subject suggested it to the complainant in a review
                                   of the complainant's previous proposal; (c) the complainant's admission of the

Il                                 possibility the subject independently came up with the idea; (d) the existence of a
                                   similar technique in a n independent, contemporaneous publication; and (e) the

11                                 small amount of copied text, we conclude there is insufficient support for the
                                   allegation of plagiarism. Nonetheless, the copied text was not within quotation

Il                                 marks or otherwise distinguished from the PI'S original text, so we sent the PI a
                                   letter reminding him to more carefully reference and distinguish text copied
                                   verbatim. 'Accordingly, this case is closed.
